Report No. DODIG-2013-116                   August 13, 2013




      National Geospatial-Intelligence Agency Did Not
       Comply With Base Realignment and Closure
                        Legislation
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing,
                      Defense Payments and Accounting Operations
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BRAC                          Base Realignment and Closure
CFR                           Code of Federal Regulations
NCE                           National Geospatial-Intelligence Agency Campus East
NGA                           National Geospatial-Intelligence Agency
OGC                           Office of the General Counsel
USACE                         U.S. Army Corps of Engineers
USD(AT&L)                     Under Secretary of Defense for Acquisition,
                                 Technology, and Logistics
                                    INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                  August 13, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR
                 ACQUISITION, TECHNOLOGY, AND LOGISTICS
               DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE
                  AGENCY

SUBJECT: National Geospatial-Intelligence Agency Did Not Comply With Base Realignment
         and Closure Legislation (Report No. DODIG-2013-116)

We are providing this report for review and comment. We conducted this audit in response to a
congressional request. The National Geospatial-Intelligence Agency could have minimized or
avoided $11.4 million in total costs if it had incorporated a site scheduled for closure into the
original plans for the National Geospatial-Intelligence Agency Campus East as required by Base
Realignment and Closure legislation. We considered management comments from the Under
Secretary of Defense for Acquisition, Technology, and Logistics and the Director, National
Geospatial-Intelligence Agency on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Director,
National Geospatial-Intelligence Agency, responded to Recommendation 1.a and 1.b. The
comments on Recommendation 1.a were not responsive. Therefore, we request additional
comments on this recommendation by September 12, 2013. The comments on Recommendation
1.b were responsive, and we do not require additional comments. The Acting Deputy Under
Secretary of Defense (Installations and Environment) responded to Recommendation 2 for the
Under Secretary of Defense for Acquisition, Technology, and Logistics. The comments on
Recommendation 2 were not responsive. Therefore, we request additional comments on this
recommendation by September 12, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to auddpao@dodig.mil. Copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 664-5945).




                                              Lorin T. Venable
                                              Assistant Inspector General
                                              Financial Management and Reporting
Report No. DODIG-2013-116 (D2011-D000DA-0208.000)                          August 13, 2013

               Results in Brief: National Geospatial-
               Intelligence Agency Did Not Comply With
               Base Realignment and Closure Legislation
                                                        for overseeing the BRAC planning process did
What We Did                                             not promptly determine that NGA’s actions
We conducted this audit in response to a request        were not compliant with the BRAC legislation.
from then Senator Jim Webb. We determined               NGA could have minimized or avoided
whether the National Geospatial-Intelligence            $11.4 million in total costs if they had
Agency (NGA) complied with Public Law 101-              incorporated the Newington site into the original
510, “Defense Base Closure and Realignment              plans for the NCE as required by BRAC
Act of 1990,” as amended. Specifically, we              legislation.
determined whether NGA complied with Base
Realignment and Closure (BRAC)                          What We Recommend
Recommendation 168, “National Geospatial-               USD(AT&L) should monitor NGA’s plans to
Intelligence Agency Activities,” which required         relocate functions remaining at NGA’s
NGA to close the following sites and relocate all       Newington site to NCE, as required by the
NGA functions to the new facility at Fort               BRAC legislation.
Belvoir, Virginia:
      Dalecarlia and Sumner sites,                     In addition, the Director, NGA, should:
         Bethesda, Maryland;
      Reston 1, 2 and 3, Reston, Virginia;                initiate negotiations with the contractor at
      Newington buildings 8510, 8520, and                  the Newington site to ensure that NGA
         8530, Newington, Virginia; and                     meets the BRAC’s statutory intent of
      Building 213, South East Federal                     eliminating excess physical capacity, and
         Center, Washington, D.C.
                                                           review the BRAC decisions made by NGA
What We Found                                               personnel and take administrative action as
                                                            appropriate.
NGA did not comply with BRAC legislation.
Specifically, NGA:
    continued operations and made
                                                        Management Comments and
       modifications to Newington 8520; and             Our Response
    did not move all functions to the NGA              We received comments from the Acting Deputy
       Campus East (NCE) at Fort Belvoir,               Under Secretary of Defense (Installations and
       Virginia, as required.                           Environment) and the Director, NGA, that were
                                                        not fully responsive to the recommendations.
This occurred because instead of implementing           Therefore, additional comments are required.
BRAC legislation requirements, NGA officials            Please see the recommendations table on the
developed a flawed rationale to justify                 back of this page.
continuing operations at the Newington site. In
addition, the Under Secretary of Defense,
Acquisition, Technology, and Logistics
(USD[AT&L]) officials who were responsible
                                                    i
Report No. DODIG-2013-116 (D2011-D000DA-0208.000)                  August 13, 2013

Recommendations Table

         Management                     Recommendations            No Additional
                                       Requiring Comment         Comments Required
Under Secretary of Defense for   2
Acquisition, Technology, and
Logistics
Director, National Geospatial-   1.a                       1.b
Intelligence Agency



Please provide comments by September 12, 2013.




                                            ii
Table of Contents

Introduction                                                                  1

      Objective                                                               1
      Background                                                              1
      Review of Internal Controls                                             3

Finding. NGA Wasted Millions in DoD Funds by Not Complying With
Base Realignment and Closure Legislation                                      4

      Planning to Continue Newington Site Operations                           4
      Modifying a Building Scheduled for Closure                               5
      Relocating the Integrated Support Facility                               6
      Additional Costs to Close the Newington Site                             7
      Actions of Officials                                                     9
      Conclusion                                                              10
      Management Comments on the Report and Our Response                      11
      Recommendations, Management Comments and Our Response                   12

Appendix. Scope and Methodology                                               14

      NGA Timeliness and Unresponsiveness                                     14
      Use of Computer-Processed Data                                          15
      Prior Coverage                                                          15

Management Comments                                                           16

      Under Secretary of Defense for Acquisition, Technology, and Logistics   16
      National Geospatial-Intelligence Agency                                 18
Introduction
Objective
Our objective was to determine whether the National Geospatial-Intelligence Agency
(NGA) complied with Public Law 101-510, “Defense Base Closure and Realignment Act
of 1990,” as amended. Specifically, we determined whether NGA complied with Base
Realignment and Closure (BRAC) Recommendation 168, “National Geospatial-
Intelligence Agency Activities.” We conducted this audit in response to a request from
then Senator Jim Webb, who asked that we review the NGA’s compliance with the
BRAC legislation. See the appendix of this report for a discussion of the scope and
methodology and for prior audit coverage.

Background
National Geospatial-Intelligence Agency
NGA is a member of the U.S. Intelligence Community and a DoD combat support
agency. The NGA mission is to provide timely, relevant, and accurate geospatial
intelligence in support of national security objectives. NGA is headquartered at its NGA
Campus East (NCE) at Fort Belvoir, Virginia. Approximately two-thirds of the NGA
workforce is assigned to the NCE.
Figure 1 presents an aerial view of the completed NCE.

                              Figure 1. NGA Campus East




                     Source: U.S. Army Corps of Engineers

Public Law No. 101-510
The purpose of BRAC is to reorganize installation infrastructure to support the armed
forces more efficiently and effectively, increase operational readiness, and facilitate new
ways of doing business. BRAC-directed activities seek to eliminate excess physical
capacity and to maximize operational capability.


                                               1
Public Law No. 101-510, “Defense Base Closure and Realignment Act of 1990,” as
amended, required the Secretary of Defense to prepare a list of recommended military
installations inside the United States to be closed or realigned. Furthermore, the public
law requires the Secretary of Defense to publish the list of recommended closures and
realignments in the Federal Register; transmit the list to the congressional defense
committees; and transmit the list to the 2005 BRAC Commission. After receiving the
Secretary’s list, the 2005 BRAC Commission was responsible for reviewing the
Secretary’s BRAC recommendations and compiling its own BRAC recommendations in
a report for the President and Congress. On November 9, 2005, the recommendations in
the 2005 BRAC Commission Final Report became law.

BRAC Recommendation 168
The 2005 BRAC Commission Final Report included 182 recommendations.
Recommendation 168, “National Geospatial Intelligence Activities,” required NGA to:

               …close National Geospatial-Intelligence Agency (NGA) Dalecarlia and Sumner sites,
               Bethesda, MD; Reston 1, 2 and 3, leased installations in Reston, VA; Newington
               buildings 8510, 8520, and 8530, Newington, VA; and Building 213, a leased installation
               at the South East Federal Center, Washington, DC. Relocate all functions to a new
               facility at Fort Belvoir, VA. Realign the National Reconnaissance Office facility,
               Westfields, VA, by relocating all NGA functions to a new facility at the Fort Belvoir,
               VA. Consolidate all NGA National Geospatial-Intelligence College functions on Fort
               Belvoir into the new facility at Fort Belvoir, VA.

Public Law No. 101-510 mandated that NGA complete these actions by September 15,
2011.

BRAC Definition of Close or Closure
BRAC law defines close or closure as an action in which all missions or activities of a
certain installation have ceased or have been relocated. All military, civilian, and
contractor personnel positions must either be eliminated or relocated. Exceptions to this
are personnel required for caretaking, conducting any ongoing environmental cleanup
and disposal of the base, or remaining in authorized enclaves.

Requirement to Submit Business Plans
Under Secretary of Defense for Acquisition, Technology, and Logistics (USD[AT&L])
Memorandum, “BRAC 2005 Implementation Planning,” September 21, 2005, established
the use of business plans as the foundation for the complex program management
necessary to ensure that BRAC recommendations were implemented efficiently and
effectively. Secretary of Defense Memorandum, “BRAC 2005 Updated Business Plans,”
June 22, 2007, required agencies to submit business plans to USD(AT&L) by the first
workday of February and August, annually, until the completion of BRAC activities.
Business plans provided important implementation details regarding the actions, timing,
and resources necessary to implement each BRAC recommendation. Agencies were
required to demonstrate in their business plans how implementation of the plan satisfied
the legal requirements for a BRAC recommendation.


                                                 2
Newington Functions
Integrated Test Facility
The Integrated Test Facility is a contractor-owned and -operated test facility for NGA.
The mission of the Integrated Test Facility is to conduct independent testing and
demonstration of hardware and software before deployment. The Integrated Test Facility
was located in Newington 8510, 8520, and a portion of 8530.

Integrated Support Facility
The Integrated Support Facility is a contractor-owned and -operated facility that provides
support to NGA systems in the Washington, D.C., area. The Integrated Support Facility
is located in a portion of Newington 8530.

Review of Internal Controls
We determined that an internal control weakness in the BRAC process existed as defined
by DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010. Specifically, USD(AT&L) officials responsible for determining that
BRAC planning documents complied with law did not promptly determine that NGA’s
documents were not compliant with the BRAC legislation. We will provide a copy of the
report to the senior officials responsible for internal controls in the USD(AT&L).




                                            3
Finding. NGA Wasted Millions in DoD Funds
by Not Complying With Base Realignment
and Closure Legislation
NGA officials did not comply with the BRAC recommendation to close the Newington
site and relocate all functions to NCE at Fort Belvoir, Virginia. Instead, NGA continued
to use the Newington site, even obligating $721,406 for modifications. This occurred
because instead of implementing BRAC legislation requirements, NGA officials from
multiple offices throughout the agency developed a flawed rationale to justify continuing
operations at the Newington site. In addition, oversight officials from USD(AT&L) did
not promptly determine that NGA’s actions were not compliant with the BRAC
legislation. As a result, NGA made $8.9 million in design and construction changes to
the NCE to accommodate its Newington site and wasted $1.7 million in DoD funds
restoring the site to its original condition. Furthermore, NGA did not meet BRAC’s
statutory intent of eliminating excess physical capacity.

Planning to Continue Newington Site Operations
NGA Business Plans
In May 2006, NGA submitted its baseline business plan, which complied with BRAC
Recommendation 168. The baseline business plan stated that NGA would move all
functions from Newington, Virginia, to the NCE. However, in the August 2007
submission,1 NGA personnel altered the language in its business plan to indicate that
NGA planned to move only Government personnel to the NCE and that it would contract
out the functions located at the Newington site. NGA personnel stated that by
contracting out functions, NGA could follow the “spirit” of BRAC while also being able
to leave functions at the Newington site. In January 2008, NGA again altered language
in its business plan to state:

                   Because NGA lacks the authority to close the privately owned Newington Buildings,
                   coupled with continuity of operations concerns, NGA will move government employees
                   to the Fort Belvoir facility, terminate the leases for the buildings and contract out the
                   functions that occurred in the buildings while managing the functions from the
                   Fort Belvoir facility.

NGA’s August 2007 and January 2008 business plan submissions did not meet the
BRAC definition of closure. Therefore, the business plans did not satisfy NGA’s legal
requirements under BRAC. The language in NGA’s biannual business plans remained
unchanged through the March 2010 submission.


Review of NGA Business Plans
In April 2010, the DoD Office of General Counsel (OGC) issued an opinion that the
changes to the business plan were unlawful, and NGA would have to move the functions

1
    NGA deferred its August 2007 business plan submission to September 2007.

                                                      4
at its Newington site to the NCE to comply with the BRAC legislation. In addition,
USD(AT&L) issued a memorandum in May 2010 informing NGA that its business plan
did not comply with BRAC legislation. In July 2010, as a result of the DoD OGC
opinion and the USD(AT&L) memorandum, NGA updated its business plan to state that
33 of 36 functions from the Newington site would move to the NCE by the BRAC
deadline and that the 3 remaining functions would be phased out and retired in place by
September 2012.

Modifying a Building Scheduled for Closure
Code of Federal Regulations
The Code of Federal Regulations (CFR), Title 32, “National Defense,” Part 174,
“Revitalizing Base Closure Communities and Addressing Impacts of Realignment,”
Subpart F, “Maintenance and Repair” provides maintenance procedures to preserve and
protect facilities located on installations being closed as part of BRAC. Specifically,
32 CFR § 174.14 states that “maintenance for facilities recommended for closure by
BRAC shall not require any property improvements, including construction, alteration, or
demolition, except when the demolition is required for health, safety, or environmental
purposes, or is economically justified in lieu of continued maintenance expenditures.”

Facility Modification
NGA obligated $721,406 for facility modification of the Newington site, even though
BRAC legislation designated the site for closure. Specifically, NGA issued an
undefinitized change order modification to start immediate demolition work for one of
the buildings at the Newington site.

NGA personnel stated that the Newington site was being prepared for renovations. After
the issuance of the DoD OGC opinion and the
USD(AT&L) memorandum, NGA was forced to stop              By not complying with the
work on the renovation effort. Under the terms of the      CFR requirements, NGA
contract for the Newington site, the Government is           wasted $2.4 million.
responsible for restoring the site to its pre-lease
condition. Therefore, NGA was responsible for paying for the restoration efforts required
by the property owner as a result of the demolition.

The restoration costs for the building that was prepared for renovations were
$1.7 million. There were no restoration costs incurred for the other buildings at the
Newington site. By not complying with the CFR requirements, NGA wasted $2.4 million
on the demolition and restoration of the Newington site.




                                           5
Relocating the Integrated Support Facility
Discovery of the Integrated Support Facility
In September 2011, the Integrated Test Facility was relocated from the Newington site to
the NCE. However, the Newington site was
not completely vacated. In February 2012, the          It was ‘discovered’ that one
General Counsel, NGA, issued a legal opinion          suite, the Integrated Support
on the status of functions remaining at the              Facility, was occupied by
Newington site, stating that during                        contractor personnel.
decommissioning, it was “discovered” that one
suite, the Integrated Support Facility, was occupied by contractor personnel performing
work for NGA. The General Counsel, NGA, argued that the “discovered” function
remaining at the Newington site was not an NGA function, but a contractor function, and
therefore was not covered by the BRAC legislation. Moreover, she stated that no
Government personnel were at the Integrated Support Facility; no NGA production
equipment was involved in the actions there; NGA was not responsible for any facility
operations or security costs; and the contractor personnel were working under completion
contracts.2 She therefore concluded that the Integrated Support Facility was not within
the scope of the BRAC legislation.

BRAC Requirements
BRAC Recommendation 168 specifically states that NGA must relocate all Newington
functions to the NCE. The BRAC legislation does not provide exceptions for any of the
arguments cited in the General Counsel, NGA, opinion. In addition, the data supporting
the BRAC recommendation refers to the Newington site as a whole. The law makes no
  The BRAC legislation does not      distinctions among the functions performed at the
   provide exceptions for any of     site. The General Counsel, NGA, acknowledged
     the arguments cited in the      that the Integrated Support Facility has been at the
      General Counsel, NGA,          Newington site since 1999. Therefore, the facility
              opinion.               was included within the scope of the 2005 BRAC
                                     recommendation. USD(AT&L)’s May 2010
memorandum also stated all functions, including the Integrated Test Facility, must
relocate from the Newington lease sites.

Integrated Support Facility Remains at Newington
The General Counsel, NGA, stated in her opinion that the location of the Integrated
Support Facility was selected because of its proximity to the Integrated Test Facility.
However, the DoD OGC opined that the Integrated Test Facility was required to relocate
to the NCE because the Secretary of Defense’s intent was to consolidate “activities now
occupying small government facilities and privately owned leased space to a secure
Department of Defense owned location, reducing excess capacity and increasing overall
military value.”

2
 NGA personnel stated that a completion contract is a contract in which the scope of work is a definite goal
or target with a specified end product.


                                                     6
When opining on the relocation of the Integrated Test Facility, DoD OGC reviewed the
data supporting the BRAC recommendation and considered the “Miscellaneous
Recurring Savings” derived from “Information Technology Infrastructure efficiencies…
the termination of lease costs…, and cessation of Facility Operations and Security costs.”
Using the logic applied by DoD OGC, the Integrated Support Facility must also relocate
for DoD to fully realize the savings.

Despite the lack of definitive support to show that the Integrated Support Facility was
exempt from the BRAC legislation and its own opinion on the Integrated Test Facility,
DoD OGC deferred to the General Counsel, NGA’s opinion on the Integrated Support
Facility. DoD OGC personnel stated that it deferred to the General Counsel, NGA’s
opinion because they did not have the technical expertise to opine on the Integrated
Support Facility.

In addition, NGA moved three functions from its Integrated Test Facility to the Integrated
Support Facility rather than phasing out or retiring the functions as stated in its July 2010
business plan. In December 2012, the DoD OIG briefed NGA personnel, including the
Deputy Director, that the three functions were not relocated as required by BRAC
legislation. In February 2013, the Deputy Director, NGA, acknowledged that moving the
functions to the Integrated Support Facility was not compliant with BRAC legislation.
He directed that the functions be decommissioned as soon as possible and has initiated an
inquiry into the action. The functions were moved to the NCE in March 2013, almost
6 months after the BRAC deadline. Furthermore, USD(AT&L) was not notified of the
status of these actions through NGA’s business plans as required.

We recognize that NGA does not directly hold the lease with the property owner of the
Newington site. However, as long as NGA contractors remain at a site that was
designated for closure, NGA will continue to incur indirect costs associated with the
lease, operations, and security of the site through payments on the contracts. Allowing
the Integrated Support Facility to remain at the Newington site eliminates the efficiencies
to be gained from the consolidation of NGA activities at the NCE. The Director, NGA,
should initiate negotiations with the contractor at the Newington site to ensure that the
BRAC legislation’s statutory intent of eliminating excess physical capacity is met.

Additional Costs to Close the Newington Site
NGA made $436,170 in design changes and $8.5 million in construction changes to the
NCE to accommodate the Newington site. The changes included modifying wall
partitions, providing layouts of interior furnishings, and developing electrical and
mechanical programs to accommodate user-defined needs. In addition, in September
2010, NGA requested $24 million in National Intelligence Program funds from the
Director of National Intelligence to fund the “unanticipated requirement” to relocate the
Integrated Test Facility at the Newington site. The Director of National Intelligence
responded that he would consider the “unfunded requirement” as part of the FY 2012
National Intelligence Program budget.


                                             7
Additional Lease Payments at the Newington Site
NGA renegotiated the lease for the Newington site following the implementation of the
BRAC legislation.3 The Newington lease for the Integrated Test Facility was extended to
September 30, 2014, and the lease for the Integrated Support Facility was extended to
December 31, 2014. During FY 2012, NGA paid $202,101 per month for the Newington
site. Of the $202,101 in lease payments:

       $30,849 per month is attributed to the space being occupied by the Integrated
        Support Facility contractors, and
       $171,251 per month is attributed to the Integrated Test Facility buildings that are
        being decommissioned.4

NGA was required to move out of the Newington site by September 15, 2011. We
requested a status of the Newington disposition in August 2012. In April 2013, NGA
stated that it finalized the walkaway costs for the facility. The walkaway costs included
an additional $4.6 million for rent and $81,986 for utilities in the Integrated Test Facility
portion of the Newington site. As of April 2013, NGA is still paying the monthly lease
expense for the Integrated Support Facility portion of the Newington site.

Determining NGA’s Business Plan Did Not Comply With
BRAC Legislation
USD(AT&L) personnel were responsible for reviewing all business plan submissions and
identifying business plan actions that did not comply with the BRAC legislation.
Between August 2007 and May 2010, USD(AT&L) did not determine that NGA’s
business plans did not meet the requirements of BRAC legislation. USD(AT&L)
personnel acknowledged that they should have reviewed the business plans more
thoroughly. However, they stated that the large scope of their responsibilities prevented
them from adequately reviewing all biannual business plan submissions.

If USD(AT&L) had determined in a timely manner that NGA’s business plan was not
compliant with the BRAC legislation, NGA may not have been able to pursue its plan to
                                    continue operations at the Newington site.
       USD(AT&L) personnel
                                    USD(AT&L) officials attempted to correct the lapse
   acknowledged that they should
                                    in their oversight responsibilities by issuing the May
     have reviewed the business
                                    2010 memorandum. However, the ultimate
       plans more thoroughly.
                                    responsibility to demonstrate in its business plans
how implementation of the plan satisfied the legal requirements of the BRAC
recommendation was NGA’s. USD(AT&L) should monitor NGA’s plans to relocate
functions remaining at NGA’s Newington Site to the NCE as required by the BRAC
legislation.


3
  The Integrated Test Facility portion of the lease was renegotiated in February 2009 and the Integrated
Support Facility portion of the lease was renegotiated in March 2011.
4
  The amounts of the Integrated Test Facility and Integrated Support Facility lease payment do not sum to
the total lease payment because of rounding.

                                                    8
Actions of Officials
National Geospatial-Intelligence Agency
NGA personnel stated that they did not intend to circumvent the BRAC legislation and
planned to continue operations at the Newington site because USD(AT&L) did not
provide a “single dissenting comment [on the NGA business plans] between 2007 and
2010.” However, in January 2007, the General Counsel, NGA, notified NGA personnel
that the DoD OGC issued a verbal opinion cautioning NGA against “outsourcing” the
Integrated Test Facility function. The General Counsel, NGA, stated that she could not
provide “a definitive favorable legal decision” regarding NGA’s plan for the Newington
site because of the “clear [BRAC] commission report language” and the DoD OGC
warning that the “outsourcing” plan was contrary to DoD’s position. She also informed
NGA officials that “there are no criminal penalties” for not complying with the BRAC
legislation but warned that “there could be significant political and fiscal fallout.”

Regardless, instead of implementing BRAC legislation requirements, NGA officials from
multiple offices throughout the agency jointly developed a flawed rationale to support
NGA’s intent to leave the Newington site open. Specifically, an official wrote that what
NGA did with respect to its Newington site was “our business.” The General Counsel
and Deputy General Counsel, NGA; the Director, NGA Campus East Program Office; the
Director, NGA Securities and Installation Operations; and the Director, NGA Acquisition
Directorate moved forward with the plan to leave the Newington site open, despite being
advised that this action did not comply with BRAC legislation.

In November 2007, NGA personnel determined that the best approach for NGA to “seek
exception to the BRAC direction for the closure of the Newington site” was to include
the Integrated Test Facility strategy in the next NCE Update to the BRAC on February 1,
2008. They further stated that “this was in lieu of directly asking the BRAC for
approval.” NGA personnel agreed that 1 month was an adequate timeframe for
USD(AT&L) to respond with any objections to the plan.

As of December 2012, an NGA contractor continued to operate at the Newington site.
The Deputy Director, NGA, stated that NGA could not force the contractor to vacate the
Newington site. However, NGA required personnel from the same contractor to move to
NCE as part of the Integrated Test Facility relocation. The Director, NGA, should review
the involvement of NGA personnel in the BRAC decision making process and take
administrative action as appropriate.

Director of National Intelligence
From September 2001 to June 2006, the current Director of National Intelligence was the
Director, NGA. During this period, NGA had a representative on the group that
developed the BRAC recommendations for the Intelligence Community. In May 2005, in
anticipation of the BRAC recommendations becoming law, NGA issued a press release
that stated, “BRAC was designed to achieve several goals: eliminate excess
infrastructure…and realize significant savings in support of transforming the Department
of Defense” In the press release, NGA stated it would close all its facilities in Maryland,
                                            9
Virginia, and Washington, D.C., and move them to the NCE. These recommendations
became law in November 2005. The former Director, NGA, issued a memorandum,
“Fort Belvoir Planning Data,” April 28, 2006, which outlined requirements for the NCE.5
Newington was included in the planning estimates. In addition, the memorandum stated,
“Consolidation of NGA Facilities at Fort Belvoir is a critical initiative that will help
transform our agency to better serve our customers.”

In April 2007, the former Director, NGA, was appointed Under Secretary of Defense for
Intelligence. In August 2007, NGA issued a memorandum to the Under Secretary of
Defense for Intelligence addressing the “commercially leased buildings that house
NGA’s Integrated Test Facility and were included in the BRAC closure plan.” In the
memorandum NGA stated, “NGA’s deployment planning has led us to determine that the
best approach to disposition of the Integrated Test Facility is to contract out its operations
at the current facility while moving its government employees to the new campus. We
believe this approach allows NGA to comply with the BRAC legislation…” In April and
May 2010, respectively, DoD OGC and USD(AT&L) notified NGA that its plans for the
Newington site did not comply with BRAC legislation.

On August 9, 2010, the former Director, NGA, and former Under Secretary of Defense
for Intelligence was appointed to his current position as the Director of National
Intelligence. In September 2010, just 1 month after the appointment, NGA requested $24
million in National Intelligence Program funds from the Director of National Intelligence
to fund the “unanticipated requirement” to relocate the Integrated Test Facility at the
Newington site. The Director of National Intelligence responded that he would consider
the “unfunded requirement” as part of the FY 2012 National Intelligence Program
budget.

NGA and the Director of National Intelligence should not have categorized the
$24 million National Intelligence Program budget funding request as “unanticipated,”
because both should have been aware of the legislative requirement to close the
Newington site.

Conclusion
NGA obligated $721,406 for modifications to the Newington site, even though the BRAC
legislation designated the site for closure. NGA must now pay $1.7 million in costs
associated with restoring the Newington site to its original condition.

In addition, NGA made $436,170 in design changes and $8.5 million in construction
changes to the NCE to accommodate the Newington site. The $11.4 million in total costs
could have been minimized or avoided if NGA had incorporated the Newington site into
its original plans for the NCE as required by the BRAC legislation. Furthermore, NGA
requested an additional $24 million of National Intelligence Program Funding for the
“unanticipated requirement” to move the Integrated Test Facility at the Newington
location.

5
    The former Deputy Director, NGA, signed the memorandum on behalf of the former Director, NGA.

                                                   10
Despite the additional costs incurred, NGA continued to occupy and incur obligations for
the Newington site through March 2013 and spent $4.6 million in lease and $81,986 in
utility payments to terminate the contract. In a time of proposed cuts to the DoD budget,
NGA needs to exhibit better stewardship.

Management Comments on the Report and Our
Response
The Director, NGA, did not agree with the overall conclusions presented in this report.
She acknowledged that NGA erred in allowing three functions to move within the
Newington site instead of relocating to the NCE. However, she stated that NGA acted in
good faith to comply with BRAC legislation and provided her reasons for disagreeing
with our conclusions. She stated that the report did not contain a number of mitigating
and clarifying facts and drew an overall conclusion that was not accurate. She argued
that NGA:

      submitted updated business plans for executing the BRAC requirements through
       the required reporting process;
      received USD(AT&L) approval for its updated business plans;
      lacked the authority to close the privately owned Newington site;
      determined that the ISF was not an NGA function and issued a legal opinion on
       its determination; and
      complied with the provisions of BRAC legislation

The Director, NGA’s comments were largely a restatement of the information described
in the body of this report. Despite warnings issued by General Counsel, NGA and DoD
OGC, NGA proceeded with its plan to continue operations at the Newington site. NGA
inappropriately determined that the best approach for NGA to “seek exception to the
BRAC direction for the closure of the Newington site” was to include the Integrated Test
Facility strategy in its business plans. Despite USD(AT&L)’s approval of NGA’s
business plans, National Geospatial-Intelligence Agency was responsible for ensuring
that its business plans satisfied legislative requirements.

Instead of closing the Newington site, NGA initiated plans to modify the Newington site.
The Director, NGA, argued that NGA planned to renovate the location prior to the
issuance of BRAC legislation. However, NGA signed the contract for the Newington
renovation in December 2008. BRAC legislation went into effect in September 2005.

BRAC law defines close or closure as an action in which all missions or activities of a
certain installation have ceased or have been relocated. BRAC recommendation 168
specifically requires NGA to cease operations in Newington buildings 8510, 8520, and
8530 and move all functions to the NCE. The recommendation clearly did not mandate
that no other tenants could occupy the building after NGA ceased operations, as implied
in the comments from the Director, NGA. She also implied that the contractor-operated
ISF was exempt from the requirement to relocate, although BRAC legislation provides no

                                           11
exemptions for contractor personnel. The General Counsel, NGA’s legal opinion ignores
the requirement for contractor personnel to relocate. The actions of NGA senior officials,
including the Deputy Director, NGA, and the General Counsel, NGA, demonstrated a
disregard for BRAC legislative requirements.


Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, National Geospatial-Intelligence Agency:
       a. Initiate negotiations with the contractor at the Newington site to ensure
           that the Base Realignment and Closure’s statutory intent of eliminating
           excess physical capacity is met. 

NGA Comments
The Director, National Geospatial-Intelligence Agency disagreed with our
recommendation to initiate contractor negotiations. She stated that the National
Geospatial-Intelligence Agency did not have the legal authority to close the remainder of
the Newington site.

Our Response
The comments from the Director, National Geospatial-Intelligence Agency were not
responsive. As discussed in this report, Base Realignment and Closure legislation
required the National Geospatial-Intelligence Agency to close three buildings at the
Newington site. Contractor personnel performing work for the National Geospatial-
Intelligence Agency continue to work in Newington 8530. Base Realignment and
Closure legislation defines close or closure as an action in which all missions or activities
of a certain installation have ceased or have been relocated. All military, civilian, and
contractor personnel positions must either be eliminated or relocated. We request that
the Director, National Geospatial-Intelligence Agency reconsider her position on the
Newington site and provide comments on this final report detailing how the agency plans
to fully implement the closure requirement. There is no exception for contractor
operations executed to accomplish NGA’s mission. Therefore, the ISF function should
have been moved to the NCE to comply with BRAC legislation.
 

       b. Review the Base Realignment and Closure decisions made by National
          Geospatial-Intelligence Agency personnel and take administrative actions
          as appropriate.

NGA Comments
The Director, National Geospatial-Intelligence Agency agreed with our recommendation
to review the Base Realignment and Closure decisions made by National Geospatial-
Intelligence Agency personnel and stated that the agency would take administrative
actions, as appropriate.
                                             12
Our Response
The comments of the Director, National Geospatial-Intelligence Agency were responsive.
We require no additional comments.

2. We recommend that the Under Secretary of Defense for Acquisition,
   Technology, and Logistics monitor the National Geospatial-Intelligence Agency’s
   plans to relocate functions remaining at National Geospatial-Intelligence
   Agency’s Newington site to the Campus East, as required by Base Realignment
   and Closure legislation.

USD(AT&L) Comments
The Acting Deputy Under Secretary of Defense (Installations and Environment)6
disagreed with our finding. Specifically, he stated that the General Counsel, NGA
appropriately concluded that the relocation of the ISF function was outside the scope of
the BRAC recommendation, and as such was not legally required in order to complete the
BRAC recommendation. As a result, he stated that he did not agree with our
recommendation and would not monitor the National Geospatial-Intelligence Agency’s
plans to relocate the functions remaining at the Newington site.

Our Response
Comments from the Under Secretary of Defense for Acquisition, Technology, and
Logistics were not responsive. BRAC legislation required NGA to relocate all functions
and does not provide an exception for contractor functions located at NGA facilities.
Thus, the NGA legal opinion is flawed. NGA’s mishandling of the relocation of ITF
function and NGA’s evidenced failure to fully comply with BRAC legislation should
provide the Under Secretary of Defense for Acquisition, Technology and Logistics with
an incentive to monitor NGA’s relocation of its remaining operations. Based on the
information contained in our response to the Director, National Geospatial-Intelligence
Agency’s comments, we request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics reconsider his position on the Newington site. We also
request that he provide comments on this final report describing how his office plans to
monitor the National Geospatial-Intelligence Agency’s relocation of the remaining
Newington functions.




6
 The Acting Deputy Under Secretary of Defense (Installations and Environment) responded on behalf of
USD(AT&L) as the Deputy Under Secretary of Defense (Installations and Environment) reports to
USD(AT&L).

                                                 13
Appendix. Scope and Methodology
We conducted this performance audit from July 2011 through March 2013 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

To perform the audit, we obtained evidence through the following actions.

      We reviewed public laws and DoD guidance related to BRAC.

      We interviewed NGA, USACE, DoD OGC, and USD(AT&L) personnel to gain
       an understanding of NGA’s BRAC process.

      We conducted walkthroughs of the NCE and NGA Newington sites.

      We requested documentation from NGA, USACE, and DoD OGC related to
       NGA’s compliance or noncompliance with the BRAC legislation. The
       documentation we received included BRAC proposals, Military Interdepartmental
       Purchase Requests, legal opinions, planning documents, and contracts and
       supporting documentation.

      We analyzed BRAC planning documents; NGA’s business plans from May 2006
       through NGA’s last submission in October 2010; legal opinions from the General
       Counsel, NGA and DoD OGC; design and construction contracts for the NCE;
       contracts and statements of work related to NGA’s Newington functions; and
       NGA’s BRAC cost estimates and funding requests.

NGA Timeliness and Unresponsiveness
DoD policies implement the Inspector General Act of 1978, as amended, and mandate
that the DoD Office of Inspector General (DoD OIG) have full and unrestricted access to
information. DoD Instruction 7050.3, “Access to Records and Information by the
Inspector General, Department of Defense,” paragraphs 3.1 and 3.2, April 24, 2000,
states that “to carry out its responsibilities, DoD OIG must have expeditious and
unrestricted access to and, when required, be able to obtain copies of all records, reports,
investigations, audits, reviews, documents, papers, recommendations, or other material
available to or within any DoD component. No officer, employee, or service member of
any DoD component may deny DoD OIG such access.”

NGA personnel took an average of 28 days to provide responses to requests for
documentation. NGA required in excess of 30 days to provide 26 responses to requests
for documentation (23 percent of requested items). For 9 of these requests (8 percent of
requested items), NGA required in excess of 100 days. The greatest number of days it
took NGA to provide a response was 247 days.

                                             14
In addition, on three occasions, we requested that NGA provide any funding requests that
it had submitted to the Director of National Intelligence. NGA personnel denied the
existence of documentation related to additional funding for their Newington site, only
acknowledging the additional funding after we elevated our request to the Director, NGA.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) has issued one
report discussing National Geospatial-Intelligence Agency Base Realignment and
Closure actions. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.

GAO
GAO-12-709R, “Military Base Realignments and Closures: Updated Costs and Savings
Estimates,” June 29, 2012




                                           15
Under Secretary of Defense for Acquisition, 

 Technology, and Logistics Comments 





                   Click to add JPEG file




                               16
Click to add JPEG file




            17
National Geospatial - Intelligence Agency Comments





                  Click to add JPEG file




                             18
Click to add JPEG file




         19
Click to add JPEG file




           20
                           Final Report 

                            Reference





Click to add JPEG file




                         Revised "Integrated
                         Support Facility
                         Remains at
                         Newington" Page 6-7




         21
                            Final Report 

                             Reference





                         Deleted





Click to add JPEG file




          22
                            Final Report 

                             Reference





                         Revised "Potential
                         Monetary Benefits at
                         the Newington Site"
                         Page 8
Click to add JPEG file




          23
                            Final Report 

                             Reference





                         Revised "Potential
                         Monetary Benefits at
                         the Newington Site"
                         Page 8




Click to add JPEG file




          24
Click to add JPEG file




          25
Click to add JPEG file




           26
Click to add JPEG file




            27
